U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

February 17, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Louisiana Real Estate Appraisers Board v. Federal Trade Commission,
S.Ct. No. 20-1018

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 22,
2021, and placed on the docket on January 28, 2021. The government’s response is due on
March 1, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 31, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

Louisiana Real Estate Appraisers Board
Federal Trade Commission

Thomas C. Goldstein
Goldstein & Russell, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814

